TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Due to the Lack of Experienced Users, the
                  Benefits of Performance-Based Acquisition
                         Are Not Being Fully Realized



                                           April 11, 2008

                              Reference Number: 2008-10-098




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            April 11, 2008


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Due to the Lack of Experienced Users, the
                             Benefits of Performance-Based Acquisition Are Not Being Fully
                             Realized (Audit # 200710005)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) is effectively managing its use of performance-based acquisition (PBA) from preparation
 of performance work statements or statements of objectives through surveillance of service
 quality and performance. The Director, Procurement, requested this audit.

 Impact on the Taxpayer
 When used properly, PBA increases performance, innovation, and competition among interested
 vendors and results in better value for the Federal Government. In addition, it shifts much of the
 risk from the Federal Government to industry and allows the Federal Government to focus its
 monitoring efforts on the desired outcomes rather than on how the work is to be performed. This
 saves taxpayer dollars because significantly fewer contract administration resources are needed.
 However, we found the IRS consistently failed to meet the Office of Management and Budget
 (OMB) target achievement level for the use of performance-based methods. This occurred
 because IRS program offices have not yet adopted the view that they are primarily responsible
 for identifying the requirements that may be suited for PBA and for doing their part in meeting
 the OMB goals for use.
                           Due to the Lack of Experienced Users, the Benefits of
                        Performance-Based Acquisition Are Not Being Fully Realized




Synopsis
Our review of a judgmental sample of seven contracts that used PBA methods showed that they
were performed in accordance with established guidelines. However, the IRS’ overall use of
PBA is well below the goals established by the Federal Government. A lack of internal expertise
within program offices on how to implement PBA as an acquisition strategy, insufficient time to
complete procurements, a lack of a vigorous planning phase, and the inability by program
managers to define requirements contributed to the under use of PBA.
The Federal Acquisition Regulation1 states that agencies must use PBA to the maximum extent
practicable when acquiring services. The OMB sets Federal Government-wide goals for the use
of PBA for eligible service actions of more than $25,000. For each of the Fiscal Years 2004,
2005, and 2006, the Federal Government’s goal was 40 percent. The IRS achieved 18 percent,
22 percent, and 13 percent, respectively, for the 3 years. Due to the tight time periods for
completing procurements, which sometimes result from a lack of planning or the inability of
program managers to define the requirements and desired outcomes of a contracting effort, the
IRS Office of Procurement (Procurement) often must forego use of this acquisition strategy. To
determine why PBA was not used more often, we reviewed 20 acquisitions that Procurement
advised us would have been good PBA candidates. Only one Contracting Officer Technical
Representative that we discussed these acquisitions with had had any formal PBA training. We
believe that this lack of knowledge, education, and experience within the business units is one of
the primary barriers for not using PBA. Because program offices, not Procurement, have the
primary responsibility for defining requirements, we believe program office participation is
essential to ensuring the effective use of PBA as a cost-effective business practice.

Recommendations
The Deputy Commissioner for Operations Support, with the support, assistance, and input from
the Deputy Commissioner for Services and Enforcement, should ensure that program office
management develops and implements a comprehensive plan to meet OMB goals for use of PBA
methods. These methods should emphasize the collective responsibility to plan, manage, and
execute PBA with cross-organizational teams and with significant participation and contribution
by program offices. Further, if not already included, the insertion of PBA usage as a measure in
individual performance standards may provide the necessary incentive to achieve PBA goals and
advantages. In addition, program personnel with the authority to select the acquisition strategy
appropriate for the procurement and those involved in writing contract requirements should be
trained in performance-based methods. Program personnel should also consult with trained
Procurement officials when deciding which type of procurement vehicle to choose to ensure that


1
    Subpart 37.1 – Service Contracts – General, Section 37.102, (a). Policy (2001).
                                                                                                 2
                     Due to the Lack of Experienced Users, the Benefits of
                  Performance-Based Acquisition Are Not Being Fully Realized



contract requirements are compatible with PBA. Finally, the Director, Procurement, should
continue to advocate and educate program personnel on the benefits of PBA.

Response
The IRS agreed with our recommendations. The Deputy Commissioner for Operations Support
has signed a memorandum for distribution encouraging program office management to
emphasize the importance of using the PBA methodology to the maximum extent practicable and
their collective responsibility in planning, managing, and executing PBA. The memorandum
urges program personnel and Contracting Officer Technical Representatives to become familiar
with the “Seven Steps to Performance Based Acquisition” guide and to enroll in a PBA course.
Among other initiatives, PBA will be identified as a High Priority Initiative requiring a detailed
plan for improvement that identifies activities with scheduled start and completion dates and is
updated and reported monthly to the Deputy Commissioner for Operations Support. However,
IRS management believes inclusion of PBA use in performance standards should be at the
discretion of business unit managers.
Procurement will continue to provide training opportunities for program office personnel through
the Treasury Acquisition Institute but cannot require attendance at those courses. Individual
managers make the determination based on employees’ assignments and developmental needs.
In addition, the Advance Acquisition Planning Council will continue to emphasize and discuss
development of PBA work statements with project managers in Advance Acquisition Planning
Meetings for requirements supporting major and nonmajor investments.
Finally, Procurement has generated an action-forcing event memorandum that emphasizes the
requirement for all program officials to use PBA strategies to the maximum extent practicable
and the many opportunities offered by Procurement to learn about PBA. As a result, the Office
of Procurement Policy has revised its policy and procedures to include a new requirement for an
acquisition planning meeting with the Director, Procurement, for any contract action, other than
firm-fixed price, that exceeds $10 million. Management’s complete response to the draft report
is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




                                                                                                   3
                           Due to the Lack of Experienced Users, the Benefits of
                        Performance-Based Acquisition Are Not Being Fully Realized




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Efforts to Implement Performance-Based Acquisition
          Have Fallen Short of Federal Government Goals.........................................Page 3
                    Recommendation 1:..........................................................Page 5

          Program Offices Lack Knowledge, Education, and
          Experience in the Use of Performance-Based Acquisition...........................Page 6
                    Recommendations 2 and 3: ................................................Page 7


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Management’s Response to the Draft Report ......................Page 13
         Due to the Lack of Experienced Users, the Benefits of
      Performance-Based Acquisition Are Not Being Fully Realized




                   Abbreviations

FY              Fiscal Year
IRS             Internal Revenue Service
OMB             Office of Management and Budget
PBA             Performance-Based Acquisition
                     Due to the Lack of Experienced Users, the Benefits of
                  Performance-Based Acquisition Are Not Being Fully Realized




                                     Background

The Internal Revenue Service (IRS) uses a variety of approaches to obtain goods and services.
One type of procurement, Performance-Based Acquisition (PBA), has begun to receive increased
emphasis and priority within the Federal Government because it can increase performance,
innovation, and competition among interested vendors, resulting in better value for the Federal
Government. PBA is a method for structuring all aspects of an acquisition around the need and
outcome desired as opposed to the method by which the work should be done. For example, a
need is identified for janitorial services with the desired outcome of clean office spaces.
However, the Federal Government does not detail how the janitorial work should be done. This
type of procurement shifts much of the risk from the Federal Government to industry because
contractors become responsible for achieving the objectives in the work statement using their
own best practices. It also allows the Federal Government to focus its monitoring efforts on the
desired outcome–rather than on how the contractor performs the work–resulting in significantly
fewer contract administration resources.
The Federal Acquisition Regulation states that agency program officials are responsible for
accurately describing the need to be filled or problem to be resolved through service contracting
in a manner that ensures full understanding and responsive performance by contractors and, in so
doing, should obtain assistance from contracting officials, as needed. The Federal Acquisition
Regulation further states that to the maximum extent practicable, the program officials shall use
PBA methods when describing the need to be filled.
In 2001, the Office of Management and Budget (OMB) issued a mandate specifically directing
agencies to write performance-based methods on a specific percentage of the total eligible
service contracting dollars worth more than $25,000.
On September 7, 2004, the OMB issued another memorandum to Federal agencies requiring the
application of PBA methods on 40 percent, as measured in dollars, of eligible service actions of
more than $25,000, including contracts, task orders, modifications, and options awarded in
Fiscal Year (FY) 2005.
On July 21, 2006, the OMB issued an additional memorandum extending the 40 percent
requirement to FY 2006. Further, the memorandum requested that agencies submit a PBA
Management Plan by October 1, 2006. On May 22, 2007, the OMB stated in a memorandum
that most agencies met or exceeded the FY 2006 goal, awarding more than 45 percent of their
eligible service contracts as performance-based. The memorandum set a 45 percent goal for
FY 2007.
In addition, on April 25, 2007, the OMB issued a memorandum, The Federal Acquisition
Certification for Program and Project Manager, which established a structured development

                                                                                          Page 1
                    Due to the Lack of Experienced Users, the Benefits of
                 Performance-Based Acquisition Are Not Being Fully Realized



program for project and program managers that includes modules for PBA. The program is
required for project and program managers assigned to what are considered major acquisitions.
This audit was performed at the Office of Procurement (Procurement) in the Office of
Agency-Wide Shared Services in Oxon Hill, Maryland, during the period March through
November 2007. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                        Page 2
                        Due to the Lack of Experienced Users, the Benefits of
                     Performance-Based Acquisition Are Not Being Fully Realized




                                       Results of Review

While the IRS has never achieved the recommended PBA usage levels, we determined that the
procurements in which PBA was used were performed in accordance with guidelines. Our
review of a judgmental sample of seven PBA contracts showed that the two primary processes of
1) acquiring services and 2) ensuring contract monitoring were performed in accordance with
Federal Acquisition Regulation guidelines. Specifically, the performance requests sent to
prospective contractors were prepared in accordance with the guidelines and generally used a
statement of objectives prepared by the IRS. The contractors then prepared a performance work
statement as part of their proposals.
The contractors also submitted adequate quality assurance plans1 in conjunction with the
solicitations, usually in the form of a matrix showing required services, performance measures,
acceptable quality levels, monitoring, and methods. All of the Contracting Officers and
Contracting Officer Technical Representatives2 associated with these seven procurements had
training in PBA use.
However, the IRS’ overall PBA use was consistently low. We determined that there were
several possible reasons for this, including a lack of knowledge, education, and experience
within the business unit staff of how and when to use this type of procurement technique, a lack
of vigorous planning, and insufficient time for Procurement to award the contract using PBA.
As a result, the IRS has not achieved the desired usage rates and may not have made the best use
of its resources when acquiring goods and services.

Efforts to Implement Performance-Based Acquisition Have Fallen
Short of Federal Government Goals
The IRS has consistently missed OMB goals for PBA use. Figure 1 shows the IRS’ actual
performance for eligible service dollars according to its management plan as of
October 1, 2006.




1
  In Federal Government contracting, Quality Assurance refers to the various functions, including inspection,
performed to determine whether a contractor has fulfilled its contract obligations pertaining to quality and quantity.
2
  The Contracting Officer Technical Representative is responsible for monitoring the contract after award and has no
role in determining the acquisition strategy.
                                                                                                              Page 3
                     Due to the Lack of Experienced Users, the Benefits of
                  Performance-Based Acquisition Are Not Being Fully Realized



                              Figure 1: Percentage Use of
                             Performance-Based Acquisition
                                           OMB Goal        IRS Actual
                            Fiscal Year
                                          (Percentage)    (Percentage)
                               2001           10%            4.78%
                               2002           20%             12%
                               2003           30%            7.37%
                               2004           40%             18%
                               2005           40%             22%
                               2006           40%             13%
                          Source: October 1, 2006, PBA Management Plan.

In response to an OMB requirement, IRS senior Procurement executives submitted a PBA usage
plan in October 2006. In the plan, they describe their outreach efforts to program offices
(e.g., IRS business units) and the ongoing encouragement they provide to Office Directors and
Branch Chiefs to use performance-based requirements to the maximum extent practicable. For
years, IRS Procurement has emphasized the use of PBA to program officials through the advance
acquisition planning process. In the most recent annual memorandum dated July 12, 2007, the
Director, Procurement, reemphasized the need for the IRS to make greater use of the PBA
methods in their statements of work and contracts for services. The memorandum notes that
OMB Circular A-11, Preparation, Submission, and Execution of the Budget, makes it mandatory
for Federal Government agencies to use performance-based work statements for information
technology services contracts that support major investments. The memorandum further states
that failure to use the PBA methods must be justified in the acquisition plan and will result in a
poor evaluation of the acquisition strategy section of the Exhibit 300, Capital Asset Plan and
Business Case Summary, when it is reviewed by management for funding. However, because
Procurement developed and implemented the PBA usage plan, it only addressed the actions it
planned to take to increase IRS use of PBA. There was no corresponding plan developed by the
IRS business units.
The decision to use a performance-based approach to obtain services is a shared responsibility
between Procurement and the business units. This decision has to be made upfront.
Notwithstanding Procurement’s efforts, we believe that top-level program office management
participation is essential to ensure that the economic and program benefits of PBA are realized as
directed by the Federal Acquisition Regulation, and to ensure that OMB goals are met. Program
offices have the mission needs, fund the acquisitions, and most importantly have the primary
responsibility for defining service requirements that meet these mission needs. Program offices
have not yet adopted the view that they are responsible for identifying requirements that may be
suited for PBA and for doing their part in meeting the goals for use. The OMB performance goal

                                                                                           Page 4
                     Due to the Lack of Experienced Users, the Benefits of
                  Performance-Based Acquisition Are Not Being Fully Realized



is primarily assigned to Procurement. However, Procurement cannot determine the acquisition
method and the schedule, including the contract type that can incorporate PBA methods, unless
the program office has done its part before submitting the acquisition request. The program
offices should be:
   •   Identifying requirements that may be suited for PBA and meeting with the contracting
       office and any other stakeholder.
   •   Developing the performance work statement or the statement of objectives, acceptable
       quality levels, and a plan to monitor performance.
   •   Obtaining training in PBA as a team to ensure that everyone understands the concepts
       and goals.
   •   Performing market research to identify sources that could provide what is needed and
       learn as much as possible about the industry’s commercial practices.
The IRS has no comprehensive plan to meet OMB goals that emphasize the collective
responsibility to plan, manage, and execute PBA with well-trained, cross-organizational teams
comprised of representatives from budget, technical, contracting, logistics, and legal staff and
with significant participation and contribution by program offices. Senior IRS executives can
support these efforts by working to overcome resistance, organizing resources, and building
commitment to new ways of doing business. Until business units are held accountable for
identifying requirements that may be suited for PBA and for doing their part to embrace this
acquisition strategy, the percentage usage goal set by the OMB and the economic and program
benefits of PBA will not be achieved.

Recommendation
Recommendation 1: The Deputy Commissioner for Operations Support, with the support,
assistance, and input from the Deputy Commissioner for Services and Enforcement, should
ensure that program office management develops and implements a comprehensive plan to meet
OMB goals for use of PBA methods. These methods should emphasize the collective
responsibility to plan, manage, and execute PBA with cross-organizational teams and with
significant participation and contribution by program offices. Further, if not already included,
the insertion of PBA usage as a measure in individual performance standards may provide the
necessary incentive to achieve PBA goals and advantages.
       Management’s Response: The IRS agreed with the recommendation. However,
       management believes inclusion of PBA usage in performance standards should be at the
       discretion of business unit managers. The Deputy Commissioner for Operations Support
       has signed a memorandum for distribution encouraging program office management to
       emphasize the importance of using PBA methodology to the maximum extent practicable
       and their collective responsibility in planning, managing, and executing PBA. The
       memorandum states both the OMB and the Department of the Treasury goals for PBA

                                                                                            Page 5
                     Due to the Lack of Experienced Users, the Benefits of
                  Performance-Based Acquisition Are Not Being Fully Realized



       and identifies a number of training opportunities recommended for program staff and
       Contracting Officer Technical Representatives. Among other initiatives, PBA will be
       identified as a High Priority Initiative requiring a detailed plan for improvement that
       identifies activities with scheduled start and completion dates, and is updated and
       reported to the Deputy Commissioner for Operations Support monthly.

Program Offices Lack Knowledge, Education, and Experience in the
Use of Performance-Based Acquisition
To determine why the IRS did not use PBA more often, we selected a sample of
20 nonperformance-based acquisitions from a list provided by Procurement that may have been
appropriate for PBA contracting. We interviewed the responsible Contracting Officer Technical
Representatives and, at the program offices’ request, other individuals involved with the contract
to determine why the contracts were not requested to be performance based.
Of the 20 acquisitions reviewed, 2 did not appear to be suitable for PBA. This was because the
contracts involved changes in tax laws that required specific corresponding changes in
processing software. The contractors involved with these requirements worked closely with, and
under the supervision of, IRS employees to accomplish the changes in the short time period
available to them. In addition, we noted that two additional acquisitions on the list were in fact
performance-based contracts and should not have been listed. We agree with Procurement that
the remaining 16 acquisitions were suitable for PBA.
Based on our discussions, we determined that the primary reasons for not using PBA were a lack
of knowledge, education, and experience in the use of this contract administration tool. For
example, of the 20 Contracting Officer Technical Representatives interviewed, only one had
formal training in PBA; however, this training was 3 years ago. In contrast, all of the
Contracting Officers in Procurement that we interviewed for the 20 acquisitions had received
PBA training. Although we did not interview other individuals in the business units who were
involved in the upfront planning of these acquisitions (and who could have made the decision to
use PBA methods), we believe the IRS is not training all the right people on how to do PBA.
This may have occurred because OMB policy and the Federal Acquisition Regulation are based
on contracting structures, so the Contracting Officers take the majority of the contracting
training, including PBA. Yet, in the IRS, the business units, not the Contracting Officers,
perform the job analysis and technical document development (e.g., performance work statement
or statement of objectives, quality assurance plan). As a result, training only the Contracting
Officers is not sufficient to increase the use of PBA.
Training is a critical tool in successfully implementing change. To deliver training effectively,
the IRS must prioritize acquisition initiatives that are most important to it, identify those needing
training and set requirements, and ensure that its training reaches the right people. Unless IRS
management sets PBA training as a high priority and defines those employees who would be

                                                                                              Page 6
                     Due to the Lack of Experienced Users, the Benefits of
                  Performance-Based Acquisition Are Not Being Fully Realized



targeted for training (e.g., those who are involved in the upfront planning for major service
acquisitions), the IRS will continue not to realize the benefits of this unique, innovative, and
cost-effective way of managing contracts. We believe Procurement could assist the business
units in identifying the individuals who should receive this training first.

Recommendations
Recommendation 2: The Deputy Commissioner for Operations Support, with the support,
assistance, and input from the Deputy Commissioner for Services and Enforcement, should
ensure that program personnel with the authority to select the acquisition strategy appropriate
for the procurement and those involved in writing contract requirements be trained in
performance-based methods. In addition, program personnel should consult with trained
Procurement officials when deciding which type of procurement vehicle to choose to ensure that
contract requirements are compatible with PBA.
       Management’s Response: The IRS agreed with the recommendation. A
       memorandum for distribution has been issued by the Deputy Commissioner for
       Operations Support and identifies several training opportunities and urges program
       personnel and Contracting Officer Technical Representatives to become familiar with the
       “Seven Steps to Performance Based Acquisition” guide and to enroll in a PBA course. In
       response to a Memorandum for Bureau Chief Procurement Officers issued by the
       Department of the Treasury’s Senior Procurement Executive, Office of the Procurement
       Executive, the Director, Procurement, has mandated that all contracting 1102 series
       employees are required to complete a PBA training course.
       Procurement will continue to provide training opportunities for program office personnel
       through the Treasury Acquisition Institute but cannot require attendance at those courses.
       Individual managers make the determination based on employees’ work assignments and
       developmental needs.
       The Advance Acquisition Planning Council will continue to emphasize and discuss
       development of PBA work statements with project managers in Advance Acquisition
       Planning Meetings for requirements supporting major and nonmajor investments. The
       Advance Acquisition Planning Council works with the customer (e.g., project officers,
       program managers, Contracting Officer Technical Representatives) and the responsible
       procuring office Contract Specialist/Contracting Officer to develop a high-level
       acquisition strategy that includes determining procurement methodology such as PBA.
Recommendation 3: The Director, Procurement, should continue to advocate and educate
program personnel on the benefits of PBA and identify the program personnel who should
receive the training first.



                                                                                             Page 7
             Due to the Lack of Experienced Users, the Benefits of
          Performance-Based Acquisition Are Not Being Fully Realized



Management’s Response: The IRS agreed with the recommendation. Procurement
has generated an action-forcing event memorandum that emphasizes the requirement for
all program officials to use PBA strategies to the maximum extent practicable and the
many opportunities offered by Procurement to learn about PBA. As a result, the Office
of Procurement Policy has revised its policy and procedures to include a new requirement
for an acquisition-planning meeting with the Director, Procurement, for any contract
action, other than firm-fixed price, that exceeds $10 million. Procurement is currently
assessing the training needs of individual program personnel for enrollment in the
team-based PBA training that the Department of the Treasury is offering.




                                                                                 Page 8
                    Due to the Lack of Experienced Users, the Benefits of
                 Performance-Based Acquisition Are Not Being Fully Realized



                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the IRS is effectively managing its use of PBA
from the preparation of performance work statements or statements of objectives through
surveillance of service quality and performance. To accomplish this objective, we:
I.     Determined the criteria used by the IRS to select procurements suitable for PBA.
       A. Reviewed policies and procedures related to awarding PBA, including IRS policies,
          OMB guidelines, and Office of Federal Procurement Policy issuances.
       B. Interviewed IRS Senior Procurement management and other Procurement personnel
          to discuss their concerns and what contracts, if any, they recommended for review.
       C. Selected a judgmental sample of 7 performance-based service acquisitions awarded in
          FYs 2005 and 2006 from 283 open acquisitions. We used a judgmental sample to
          ensure that the most significant PBA contracts were selected.
       D. Interviewed Contracting Officers and Contracting Officer’s Technical
          Representatives involved with the contracts in our sample to obtain an understanding
          of their responsibilities.
II.    Determined the extent to which the IRS uses PBA as required by OMB guidelines.
       A. Confirmed that the acquisitions in the judgmental sample in Step I.C. met the criteria
          for performance-based acquisition.
       B. Verified the accuracy of the IRS’ October 1, 2006, PBA Management Plan, which
          reported achievement levels of 22 percent and 13 percent, respectively, for FYs 2005
          and 2006.
       C. Through reviews of selected contract files and discussions with responsible IRS
          officials, determined why the IRS did not meet OMB achievement levels of
          40 percent for FYs 2005 and 2006. We accomplished this through a judgmental
          sample of 20 acquisitions identified by Procurement as being eligible for a
          performance-based acquisition, though they were not.
           This audit did not include audit procedures to obtain evidence that
           computer-processed data, which were the basis for our 2 judgmental samples (7 and
           20), were valid and reliable. Though used during this audit, the data in general were
           not considered significant to the audit’s objective or resultant findings. We only used
           the data to reasonably verify the universe from which we selected our samples for

                                                                                           Page 9
                    Due to the Lack of Experienced Users, the Benefits of
                 Performance-Based Acquisition Are Not Being Fully Realized



          substantive testing. We only concluded and reported on those substantive tests.
          Therefore, there was no adverse effect on the audit as a result of not including the
          reliability of computer-processed data audit procedures.
III.   Determined whether the IRS prepared complete, accurate, and timely performance work
       statements or statements of objectives for PBA contracts.
       A. For performance work statements, verified whether the statements were written as a
          description of required results rather than a description of how the results are to be
          attained.
       B. Verified whether the statements contained language to enable an assessment of work
          performance against measurable performance standards.
       C. Verified whether the statements used measurable performance standards and financial
          incentives in a competitive environment to encourage competitors to develop and
          institute innovative and cost-effective methods of performing the requested work.
       D. For statements of objectives, verified whether the objectives described the full size
          and range of the services required.
       E. Verified whether the objectives included measurable, mission-related objectives.
       F. Verified whether the objectives identified any constraints related to the services
          required.
IV.    Determined whether the IRS effectively prepared quality assurance surveillance plans
       and used them to evaluate contractor quality, performance, and conformity with the terms
       of the contracts and requirements of the Federal Acquisition Regulation.
       A. Identified the work that required surveillance.
       B. Verified whether the quality assurance surveillance plan was complete.
       C. Verified whether the quality assurance surveillance plan addressed both the
          contractor’s role in quality control and the Federal Government’s role in quality
          assurance.
       D. Identified the methods of surveillance used (e.g., sampling, periodic inspection,
          customer feedback, observation).
       E. Analyzed the sufficiency of documented surveillance schedules, checklists, and
          reports.
       F. Verified whether appropriate actions were taken to resolve incomplete or
          unacceptable work identified using the quality assurance surveillance plan.



                                                                                          Page 10
                    Due to the Lack of Experienced Users, the Benefits of
                 Performance-Based Acquisition Are Not Being Fully Realized



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Alicia P. Mrozowski, Director
Thomas J. Brunetto, Audit Manager
Robert W. Beel, Lead Auditor
Chinita Coates, Auditor
Rashme Sawhney, Auditor




                                                                                    Page 11
                   Due to the Lack of Experienced Users, the Benefits of
                Performance-Based Acquisition Are Not Being Fully Realized



                                                                 Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Chief, Agency-Wide Shared Services OS:A
Chief Information Officer OS:CIO
Director, Procurement OS:A:P
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Deputy Commissioner for Operations Support OS
       Deputy Commissioner for Services and Enforcement SE
       Chief, Agency-Wide Shared Services OS:A:F
       Modernization and Information Technology Services B:TAM
       Director, Procurement OS:A:P




                                                                       Page 12
       Due to the Lack of Experienced Users, the Benefits of
    Performance-Based Acquisition Are Not Being Fully Realized



                                                   Appendix IV

Management’s Response to the Draft Report




                                                          Page 13
   Due to the Lack of Experienced Users, the Benefits of
Performance-Based Acquisition Are Not Being Fully Realized




                                                      Page 14
   Due to the Lack of Experienced Users, the Benefits of
Performance-Based Acquisition Are Not Being Fully Realized




                                                      Page 15
   Due to the Lack of Experienced Users, the Benefits of
Performance-Based Acquisition Are Not Being Fully Realized




                                                      Page 16
   Due to the Lack of Experienced Users, the Benefits of
Performance-Based Acquisition Are Not Being Fully Realized




                                                      Page 17
   Due to the Lack of Experienced Users, the Benefits of
Performance-Based Acquisition Are Not Being Fully Realized




                                                      Page 18
   Due to the Lack of Experienced Users, the Benefits of
Performance-Based Acquisition Are Not Being Fully Realized




                                                      Page 19
   Due to the Lack of Experienced Users, the Benefits of
Performance-Based Acquisition Are Not Being Fully Realized




                                                      Page 20
   Due to the Lack of Experienced Users, the Benefits of
Performance-Based Acquisition Are Not Being Fully Realized




                                                      Page 21
